Nos. 20-688 and 20A100
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ORLANDO CORDIA HALL, PETITIONER
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
(CAPITAL CASE)
__________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO PETITION FOR A WRIT
OF CERTIORARI AND TO APPLICATION FOR STAY OF EXECUTION, via email and
first-class mail, postage prepaid, this 19th day of November, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 19, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-688
ORLANDO CORDIA HALL
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
20A100
ORLANDO CORDIA HALL
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
PIETER H. B. VAN TOL
HOGAN LOVELLS US LLP
390 MADISON AVENUE
NEW YORK, NY 100017
PIETER.VANTOL@HOGANLOVELLS.COM

